App. 1
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 17-3608
-----------------------------------------------------------------------

Johnnie Rochell, Jr.
Plaintiff - Appellee
v.
City of Springdale Police Department; City of Fayetteville Police Department; Officer Sutley, Fayetteville;
Officer Hunter Carnahan, Fayetteville; Detective
Anthony Smith; Officer Motsinger, #3096 Springdale;
A. Reznicek, Fayetteville,
Defendants
Detective Cody Ross, Springdale, Individual Capacity
Defendant - Appellant
Officer Chris Denton, #253 Fayetteville; Officer
Jill Chalfant; Corporal Kim Allen Adee, #106 Fayetteville; Detective Frank Gamble, Springdale; Officer
Unknown Badge, #318 Springdale; Det. David Williams, #198 Fayetteville; Officer Daniel L. Robbins,
#245 Fayetteville; Justin Ingram, #358 Springdale;
Officer Knotts, #205 Fayetteville; Kimberly Shepherd,
Fayetteville; Officer David Baker, Springdale; L. Rota,
Fayetteville; Officer Derek Hudson, Springdale;
Marion J. McCandless, named [sic] changed from
M. Candless; City of Springdale, Arkansas
Defendants.
-----------------------------------------------------------------------

App. 2
Appeal from United States District Court for
the Western District of Arkansas - Fayetteville
-----------------------------------------------------------------------

Submitted: November 6, 2018
Filed: April 25, 2019
[Unpublished]
-----------------------------------------------------------------------

Before COLLOTON, BOWMAN, and KELLY, Circuit
Judges.
-----------------------------------------------------------------------

PER CURIAM.
In this 42 U.S.C. § 1983 action, City of Springdale
Detective Cody Ross appeals the district court’s1 interlocutory orders denying him qualified and statutory
immunity on excessive-force and false-imprisonment
claims asserted against him by Johnnie Rochell, Jr. We
affirm.
In an appeal from an interlocutory order denying
qualified immunity, this court has jurisdiction to review abstract issues of law, but may not review the district court’s determination that the evidence was
sufficient to permit a particular finding of fact. See
Shannon v. Koehler, 616 F.3d 855, 860–61 (8th Cir.
2010). We conclude that the facts the district court
found sufficiently supported at summary judgment
gave rise to a Fourth Amendment violation because a
1

The Honorable Timothy L. Brooks, United States District
Judge for the Western District of Arkansas.

App. 3
police officer uses excessive force by pointing his service weapon at the head of a suspect who has dropped
his weapon, has submitted to arrest, and no longer
poses an immediate threat to the safety of officers or
others. See Graham v. Connor, 490 U.S. 386, 394–96
(1989) (when determining whether force was excessive,
relevant considerations include severity of crime,
threat suspect posed to officers or others, and whether
suspect resisted arrest or attempted to flee); Wilson v.
Lamp, 901 F.3d 981, 989–90 (8th Cir. 2018) (officers
may reasonably brandish weapons when confronted
with serious danger in course of investigative stops,
but they are not permitted to ignore changing circumstances and new information that emerges; although
officers were initially justified in approaching vehicle
with service weapons drawn, continued pointing of
weapons became unreasonable once they realized
driver and passenger did not pose threat). We further
conclude that this right was clearly established in February 2016, when the incident underlying Rochell’s
claims occurred. See Thompson v. City of Monticello,
894 F.3d 993, 999 (8th Cir. 2018) (“A clearly established
right is one that is sufficiently clear that every reasonable official would have understood that what he is doing violates that right. While clearly established law
should not be defined at a high level of generality it is
not necessary, of course, that the very action in question has previously been held unlawful.” (cleaned up));
see also Wilson, 901 F.3d at 990–91 (plaintiffs’ right to
be free from excessive force, i.e., not having officers’
service weapons continuously drawn and pointed at

App. 4
them after officers realized they posed no threat, was
well-established in September 2014).
We decline to address Ross’s remaining arguments
on the excessive-force claim because they impermissibly construe disputed facts in his favor and contradict
facts the district court found sufficiently supported at
summary judgment. See Thompson, 894 F.3d at 999
(on interlocutory appeal from denial of qualified immunity, appellant who construes disputed facts in his
own favor effectively asks this court to review matter
over which it lacks jurisdiction, i.e., which facts plaintiff may, or may not, be able to prove at trial); Shannon,
616 F.3d at 860–61 (on interlocutory appeal from denial of qualified immunity, this court may not review
district court’s determination that evidence was sufficient to permit particular finding of fact).
On the false-imprisonment claim, Ross argues
only that the district court erred in denying him statutory immunity.2 We conclude that this issue is not
properly before us because Ross first sought summary
judgment on that basis in a motion for reconsideration
of the denial of qualified immunity, and he did not file
a new or amended notice of appeal after the district
court denied that motion. See Fed. R. App. P.
4(a)(4)(B)(ii) (in a civil case, a party intending to challenge an order disposing of a motion under Fed. R. Civ.
2

To the extent that Rochell stated a false-imprisonment
claim under the Fourth Amendment, the district court denied
Ross qualified immunity on that claim. Ross has not appealed
that determination, and we decline to opine on the propriety of
the district court’s analysis.

App. 5
P. 59 or 60 must file a notice of appeal or amended notice of appeal within prescribed time frame); see also
28 U.S.C. § 2107(a) (no appeal shall bring any order entered in civil action before court of appeals for review
unless notice of appeal is filed within 30 days after entry of such order); Hamer v. Neighborhood Hous. Servs.
of Chi., 138 S. Ct. 13, 16–17, 21 (2017) (compliance with
§ 2107’s requirements is jurisdictional).
Accordingly, we affirm the district court’s denial of
qualified immunity.

COLLOTON, Circuit Judge, concurring.
In qualified immunity cases like this one, the
plaintiff must establish that defendant’s alleged conduct violated a clearly established right, and “the
clearly established right must be defined with specificity.” City of Escondido v. Emmons, 139 S. Ct. 500, 503
(2019). “Use of excessive force is an area of the law in
which the result depends very much on the facts of
each case, and thus police officers are entitled to qualified immunity unless existing precedent squarely
governs the specific facts at issue.” Kisela v. Hughes,
138 S. Ct. 1148 (2018) (per curiam) (internal quotations committed [sic]). On plaintiff Rochell’s excessive
force claim against defendant Ross, the district court
acknowledged that there was no case in this circuit
with the fact pattern alleged here, but nonetheless denied qualified immunity. Ross understandably objects

App. 6
on appeal that the district court failed to conduct its
analysis at the proper level of specificity.
After the briefs were filed in this case, however, a
panel of this court decided Wilson v. Lamp, 901 F.3d
981 (8th Cir. 2018). Wilson held not only that pointing
a firearm at a compliant suspect was unreasonable, but
that the unreasonableness of that conduct was clearly
established as of September 2014—more than a year
before the incident in this case. The Wilson decision is
debatable. Despite the Supreme Court’s admonition to
ask whether “existing precedent squarely governs the
specific facts at issue,” Wilson relied on cases involving
the use of physical force or violence against compliant
subjects to conclude that the unreasonableness of
pointing a gun was clearly established. Id. at 990-91.
But given Wilson’s definition of what was clearly
established law in 2014, I agree that the district court’s
order denying qualified immunity on the excessive
force claim must be affirmed. Under the alleged facts,
after all, Ross did not merely point a gun at a compliant Rochell; the claim is that he pressed his firearm
behind Rochell’s ear and said, “I’ll blow your f*****g
brains out if you ever approach me like that again.” If
it violated clearly established law for a defendant in
Wilson simply to keep his gun pointed at a compliant
subject, then it follows a fortiori that Ross’s alleged action did too.
The district court also denied Ross qualified immunity on Rochell’s Fourth Amendment claim for false
imprisonment, but Ross did not appeal that issue, and

App. 7
this court therefore does not resolve it. Because Ross’s
stated reason for arresting Rochell was his alleged unlawful possession of a firearm, the district court
seemed to believe that Ross could not rely on Rochell’s
undisputed commission of a disorderly conduct offense
to justify arresting and detaining him. R. Doc. 69, at
21-22. Under the Fourth Amendment, however, “an arresting officer’s state of mind (except for the facts that
he knows) is irrelevant to the existence of probable
cause.” Devenpeck v. Alford, 543 U.S. 146, 153 (2004);
see Carpenter v. Gage, 686 F.3d 644, 649 (8th Cir. 2012)
(“That the deputies’ subjective reason for arresting
Carpenter may have been different does not invalidate
the arrest.”). This proposition may be considered further as the case proceeds.

App. 8
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
JOHNNIE ROCHELL, JR.
v.

PLAINTIFF,

CASE No. 5:16-CV-5093

CITY OF SPRINGDALE, ARKANSAS
and DETECTIVE CODY ROSS
DEFENDANTS.
MEMORANDUM OPINION AND ORDER
(Filed Oct. 25, 2017)
Currently before the Court are Defendants City
of Springdale, Arkansas’ (“Springdale”) and Detective
Cody Ross’s1 Motion for Summary Judgment (Doc. 51)
and Brief in Support (Doc. 52), Plaintiff Johnnie Rochell,
Jr.’s Response in Opposition (Doc. 59), and Defendants’
1

Other defendants were present in the lawsuit at the time
the Motion for Summary Judgment was filed. However, the parties filed a Joint Stipulation of Dismissal (Doc. 61) of certain
claims and defendants on August 28, 2017, the same day Plaintiff
filed his Response to the Motion for Summary Judgment. The
Joint Stipulation was somewhat unclear as to which claims were
being dismissed and which were being preserved, so the parties
filed an Amended Joint Stipulation of Dismissal (Doc. 64) on August 31, 2017. The Amended Joint Stipulation explained that all
defendants were dismissed without prejudice except for Springdale and Detective Ross, and all claims were dismissed without
prejudice except for excessive force, false arrest, and false imprisonment. See Order, Doc. 66. In the following Opinion and Order,
the Court will rule on the merits of the Motion for Summary Judgment as they pertain to the remaining Defendants and causes of
action, and will find as moot any claims that are discussed in the
Motion, but that have been voluntarily dismissed.

App. 9
Reply (Doc. 65). For the reasons given below, the Motion is MOOT IN PART, GRANTED IN PART, AND
DENIED IN PART.
I.

BACKGROUND

On February 19, 2016, Detective Ross and several
other police officers were surveilling a house near Mr.
Rochell’s residence in Springdale, Arkansas. Detective
Ross was parked in a red, unmarked pickup truck
against the curb, directly in front of Mr. Rochell’s
house. Detective Ross was not in uniform even though
he was on duty. He was wearing jeans and a shortsleeved shirt, and he sported a beard.2 While sitting in
the truck, Detective Ross would periodically look
through binoculars at the house he was surveilling,
and then report what he observed to other officers who
were in the vicinity, either over the radio or over a cell
phone.
At some point, Mr. Rochell and his son arrived
home and pulled into their driveway. Mr. Rochell immediately observed Detective Ross’s truck parked in
front of his house. He watched the truck for a short
while. Then Mr. Rochell’s son went across the street to
a neighbor’s house, and Mr. Rochell attempted to get
Detective Ross’s attention by waiving [sic] at him and
trying to get him to roll down his window. Detective
Ross testified that at that time, he was the only officer
who had eyes on the house that was being surveilled,
2

Mr. Rochell in his deposition described Detective Ross as
looking like “a rusty dusty bum.” (Doc. 53-1, p. 8).

App. 10
so he did not feel he could get out of his car to speak
with Mr. Rochell. Again Mr. Rochell tried to get Detective Ross’s attention by motioning him to roll down his
car window, but Detective Ross, who was on his cell
phone at the time, did not roll down his window, and
instead held up his finger to Mr. Rochell, in an attempt
to tell him to “hold on just a minute.” (Doc. 53-7, p. 5).
According to Mr. Rochell, Detective Ross then made another phone call, looked up, and “put his one finger up
again.” (Doc. 53-1, p. 5). Detective Ross also motioned
for Mr. Rochell to come over to him, but Mr. Rochell
shook his head “and said no,” and then went inside his
house. Id.
Detective Ross had the sense that Mr. Rochell was
becoming concerned about his presence, so Detective
Ross contacted Detective John Mackey, who was also
in the vicinity, with the intent of asking him to call police dispatch and warn them that they might soon receive a call from a concerned citizen (Mr. Rochell).
According to Detective Ross, he had just gotten on the
phone with Detective Mackey, and had started to say,
“Will you call dispatch—” when he noticed Mr. Rochell
walking toward the truck with an AR-15 rifle slung
around his body. (Doc. 53-7, p. 6). Detective Ross does
not recall whether the barrel of Mr. Rochell’s rifle was
pointed up or down, but he does confirm that the gun
was resting on Mr. Rochell’s back, “[s]uch that he would
have to actually put his head through the sling” to take
it off. Id. at 22. Mr. Rochell confirms that he “put [the
strap of the rifle] over [his] head where the gun was on
[his] back, the barrel . . . pointed down to [his] right

App. 11
side, the stock . . . pointed up towards his [left] shoulder.” (Doc. 53-1, p. 6). Detective Ross also testified that
Mr. Rochell never ran toward the truck or pointed the
weapon at him. (Doc. 53-7, p. 23). More to the point,
Detective Ross was asked during his deposition
whether Mr. Rochell’s hands ever touched his rifle
during the entire encounter, and Detective Ross replied, “No, not that I recall.” Id. at 22-23.
The two men dispute exactly when Detective Ross
identified himself as a police officer. Detective Ross
maintains that he had already pulled his badge from
underneath his shirt and placed it on his chest before
Mr. Rochell exited his house with his rifle. Detective
Ross did so “thinking that if [Mr. Rochell] did come out
on the porch again, he might see [him]—he might see
[his] badge and then not really be concerned about it
or at least relieve his concerns a little bit.” Id. at 6. In
Detective Ross’s version of events, he had already
placed the badge, which was on a chain, outside his
clothing, resting on his chest, when he spotted Mr. Rochell walking through his front lawn, toward the
pickup truck, with the rifle slung across his back.
When Mr. Rochell was about eight to twelve feet from
the truck, Detective Ross claims that he exited the
truck, drew his service weapon, and began shouting,
“Police, drop the weapon!” Id. at 7. Detective Ross admits he shouted this even though Mr. Rochell was not
“actually holding the weapon.” Id. at 26.
Mr. Rochell’s version of events is different. He
claims that after he emerged from his house with his
rifle on his back and began walking to the truck,

App. 12
Detective Ross suddenly jumped out holding a pistol
and screaming, “Drop the fucking gun or I’ll blow your
fucking brains out! Drop the gun or I’m going to fucking kill you!” (Doc. 53-1, p. 6). Mr. Rochell avers that he
put up his hands immediately, palms facing outward,
even though Detective Ross did not identify himself as
a police officer or display his badge. Mr. Rochell maintains that he had no idea who this man pointing a gun
at him was and assumed that he might be “on drugs”
or “selling drugs in front of [the] house.” Id. Mr. Rochell
also testified that when Detective Ross yelled at him to
“drop the gun” and threatened to shoot him, Mr. Rochell did not drop the gun initially because he had no
idea Detective Ross was a police officer. In Mr. Rochell’s
mind, there was no reason for him to drop the gun at
that point because he “didn’t do anything [wrong]”
since “this is an open carry state,” and he was “well
within [his] rights to come out of [his] house with [his]
firearm whenever [he] [felt] like it.” Id. at 6-7. But from
Detective’s Ross’s perspective, he was “in fear for his
life” and “scared” when he saw Mr. Rochell approach.
Detective Ross agrees that when he first commanded
Mr. Rochell to drop the weapon, Mr. Rochell “froze and
stood there, not being uncooperative by any means,”
but not dropping the weapon. (Doc. 53-7, p. 8).
Mr. Rochell testified that Detective Ross eventually pulled his badge from under his shirt. At that
point, Mr. Rochell realized that Detective Ross was a
police officer, and he immediately complied with the
command to drop his weapon. Mr. Rochell grabbed the
strap that held the weapon with his left hand, pulled

App. 13
the strap over his head, passed the weapon to his right
hand, and set it on the ground, holding both his hands
in front of him. Detective Ross’s account of how Mr. Rochell removed his weapon matches Mr. Rochell’s. See
id. at 27. In particular, Detective Ross observed that
the way Mr. Rochell lifted the weapon over his head
and placed it on the ground was “very slow[ ] and very
correct—I mean he did it the correct way.” Id.
After he placed his weapon on the ground, Mr. Rochell “took a step to [his] left over away from the
weapon.” (Doc. 53-1, p. 7). Detective John Brashear,
who arrived at the scene around that same time, confirmed that he saw Mr. Rochell’s rifle “approximately
three feet on the ground from where Mr. Rochell was
standing.” (Doc. 53-10, p. 2). The rifle “ended up laying
near a tree. . . . or even on the landscaping at the base
of the tree,” according to Detective Ross’s testimony.
(Doc. 53-7, p. 27).
Once Mr. Rochell placed his weapon on the ground
and took a step away from it, he believes Detective
Ross grew even more agitated than he had been before,
yelling, “I’ll fucking blow your brains out, get on the
ground! I’ll fucking kill you, get on the ground!” (Doc.
53-1, p. 7). Mr. Rochell testified that he started turning
around in order to get to the ground, but was doing it
very slowly, “not trying to get shot or anything like
that.” Id. Detective Ross advanced on Mr. Rochell and
shoved him to the ground. Id. at 8. Detective Brashear
confirms that when he arrived at the scene, he observed Detective Ross giving Mr. Rochell loud, verbal
commands to get on the ground, and that at first, Mr.

App. 14
Rochell “was just standing there,” (Doc. 53-10, p. 2), but
that eventually he saw Detective Ross “grabbing [Mr.
Rochell] and putting him on the ground,” id., and doing
so “forcefully,” id. at 4.
Mr. Rochell alleges that once he was on the
ground, with his hands behind his back and his rifle
laying several feet away from him, Detective Ross
“took his [own] gun”—a Glock 9-millimeter pistol—
“and he pressed it behind [Mr. Rochell’s] right ear,” saying, “I’ll blow your fucking brains out if you ever approach me like that again.” (Doc. 53-1, p. 7). Mr. Rochell
believed that, for some reason, Detective Ross seemed
“more irate and just hyped up” after Mr. Rochell was
on the ground than before, “which didn’t make sense”
to Mr. Rochell. Id. at 11. For his part, Detective Ross
does not recall what he said to Mr. Rochell once he
was on the ground. He only remembers “screaming at
[Mr. Rochell]; [and] he was screaming at me.” (Doc. 537, p. 29). Detective Ross admits that he pointed his gun
at Mr. Rochell “when he was on the ground,” at
“[a]lmost point blank” range, id., and that it was “[v]ery
likely” that he placed the barrel of his pistol against
Mr. Rochell, id. at 30. He also neither admits nor denies Mr. Rochell’s claim that he threatened to “blow his
fucking head off ” after Mr. Rochell was on the ground
with his hands behind his back and weaponless. See id.
What happened next is that Detective Ross decided to handcuff Mr. Rochell. The handcuffs were
still in the truck, so Detective Ross asked Detective
Brashear to stay with Mr. Rochell while he retrieved
the cuffs. Detective Brashear did so, holding both of

App. 15
Mr. Rochell’s hands. Detective Brashear testified that
Mr. Rochell “wasn’t being combative or anything at
that point.” (Doc. 53-10). Detective Ross holstered his
weapon and returned with the handcuffs. He secured
them over Mr. Rochell’s wrists and asked him his
name. Mr. Rochell identified himself as “Johnnie Rochell L.” (Doc. 53-1, p. 13).
Soon other officers arrived at the scene, and Mr.
Rochell was placed in the back of a police vehicle. Police
then attempted to confirm Mr. Rochell’s identity and
determine if he had a criminal record. Detective Robert
Thorson, who had been part of the team of investigators
surveilling the house on Mr. Rochell’s street, arrived at
around the time Detective Ross was handcuffing Mr.
Rochell. Detective Thorson called Springdale police
dispatcher Stacy Elliott and asked her to check the license plate of the car parked in Mr. Rochell’s driveway.
The vehicle was registered to a woman, so that information did not assist in the identification process. Detective Thorson next asked Ms. Elliott to check the
history of the address for any males who matched Mr.
Rochell’s physical description, a Black male in his mid30s. (Doc. 53-8, p. 7). After checking, Ms. Elliott confirmed that a person matching that description named
Johnnie Rochell was listed as a resident of that address. Detective Thorson then asked Ms. Elliott to run
Mr. Rochell’s name and date of birth through the ACIC
(Arkansas Crime Information Center) and NCIC (National Crime Information Center) databases to see if
he had any warrant history or other criminal history.
Id.

App. 16
Ms. Elliott’s ACIC search returned a two-page report, which the Court has received as part of the summary judgment record. (Doc. 54-2). Significantly, the
top of the first page of the report identifies a White
male named Johnny Wayne Russell, Jr., born October
27, 1977; and the next entry on the same page identifies a Black male named Johnnie Rochell, Jr., with
the same date of birth. The face of the report therefore identifies two different individuals with the same
birthdate, not a single individual with an alias. The report includes only Mr. Rochell’s photograph and lists
only his past criminal offenses: two traffic-related misdemeanor offenses from 2009. See Doc. 54-2.
After viewing the ACIC report, Ms. Elliott reported to Detective Thorson over the radio that Mr. Rochell had no outstanding warrants, but that he did
have State Identification (“SID”) and Federal Bureau
of Investigation (“FBI”) “numbers.” Detective Thorson
asked her to run Mr. Rochell’s “numbers” to see if he
was a felon. Ms. Elliott testified that when a database
search returns the name of a person with the same
birthdate as the person being searched, police call this
a “false hit.” (Doc. 53-12, p. 4). When Ms. Elliott got a
“false hit” on Johnny Wayne Russell, Jr., she unfortunately used his “numbers” to search for felonies. As a
result, she falsely reported to Detective Thorson that
Mr. Rochell had two felony-arson convictions out of
Mississippi County, Arkansas, and McDonald County,
Missouri. In actuality, those felony convictions were
Mr. Russell’s, not Mr. Rochell’s. Still, the error had
been unwittingly made, and Detective Thorson, having

App. 17
received confirmation of the felony record from dispatch, relayed this information to Detective Ross, who
next placed Mr. Rochell under arrest for being a felon
in possession of a firearm.
When Mr. Rochell was told why he was being
placed under arrest, he immediately denied that he
was a felon. He claims he “started laughing” and said,
“Man, I don’t have any felonies.” (Doc. 53-1, p. 14). Mr.
Rochell also claims that he was told by police that his
alias was “Johnny Russell,” and he adamantly denied
this, too. Id. at 15.
After Mr. Rochell was arrested, he was taken to
the Springdale Police Department. There, Detective
Ross spoke with Mr. Rochell about “his” felony-arson
convictions in Arkansas and Missouri, and Mr. Rochell
once again denied he was a felon. Detective Ross
stepped into the area where Mr. Rochell was waiting to
be booked and processed, and he spoke to Mr. Rochell
about the details of the felony convictions, all the while
holding the ACIC report that contained the “false hit”
on Johnny Wayne Russell, Jr., a White male. Detective
Ross admitted in his deposition: “I have never in my
career ran an ACIC printout myself. . . . So I don’t have
a great understanding of it. . . .” (Doc. 53-7, p. 37). And
although Detective Ross “may have even showed [Mr.
Rochell] the ACIC report that showed the conviction,”
id. at 11-12, Mr. Rochell remained “very adamant that
[the report] was not true,” id. at 12. Detective Ross performed no further inquiries or investigations at that
time and instead wrote up a report on the day’s events.
He did so even though he felt “there may have been

App. 18
some validity” to Mr. Rochell’s denial that he had a felony record, given “the way [Mr. Rochell] was saying it.”
Id. Regardless of his qualms, Detective Ross arranged
for Mr. Rochell to be transferred to the Washington
County Detention Center (“WCDC”), where he was
jailed on the charge of being a felon in possession. He
spent the night in jail and was released on bond sometime later.
The day of the arrest was Friday, February 19,
2016. The following Monday, February 22, 2016, Detective Ross came to work concerned that perhaps he had
made a mistake after all in Mr. Rochell’s case. He
decided to do some investigating. He began by approaching FBI Task Force officer Robert Hendrix and
confessing his fears. He told Detective Hendrix that
Mr. Rochell “may have a point and there’s an identity
issue somewhere in here,” and that he “just want[ed]
to make sure we did the right thing.” Id. at 14. According to Detective Ross, Detective Hendrix helped him
out by giving him “some pointers . . . on websites to
look at and databases to look into” to confirm his suspicions. Id. at 15. After some digging, Detective Ross
realized that “[f ]or some odd reason, when you run Mr.
Rochell, this white male named Johnny Russell shows
up.” Id. at 17. Mr. Rochell’s criminal record only contained “some misdemeanor charges”; whereas Mr. Russell’s record contained felony-arson convictions. Id.
Detective Ross then “started looking at the criminal charge out of McDonald County[, Missouri]” that
pertained to Johnny Russell, and he decided to call the
sheriff ’s office there to inquire further. Id. He spoke by

App. 19
telephone to a McDonald County sheriff ’s officer and
asked him to fax Mr. Russell’s booking photo. Once the
photo was faxed, Detective Ross examined it and determined the quality was too poor to be of any value.
Detective Ross decided, “There’s something wrong here
and we need to figure it out,” so he and another officer
“just g[ot] in the car and dr[ove] to McDonald County
and . . . look[ed] at the booking photo ourself [sic].” Id.
at 18. Sure enough, when the officers viewed Johnny
Russell’s booking sheet, “it [was] obviously not Mr. Rochell. It [was] a white male holding a board that says
Johnny Wayne Russell, same date of birth as Mr. Rochell.” Id.
Armed with the knowledge that he had arrested
Mr. Rochell for a crime he did not commit, Detective
Ross returned to the Springdale Police Department
and called the city prosecutor to explain that the felonin-possession charge against Mr. Rochell should be
dropped. He next called Mr. Rochell and told him he
“did some digging” and “went around to other agencies”
and had confirmed that the person who had the felonyarson conviction was “clearly not you.” Id. at 19-20. He
then invited Mr. Rochell back to the police station to
pick up his weapon, which had been confiscated during
the arrest.
Instead of putting this case of mistaken identity
behind him, the next thing Detective Ross did was
confer with his supervisor to figure out how to charge
Mr. Rochell with something else—albeit not a felonin-possession charge. Detective Ross recounted in his
deposition how he and his supervisor “broke out a[n]

App. 20
Arkansas criminal code book” and searched through it
to determine what charge to use. Id. at 20. They hit
upon the charge of “disorderly conduct” and then “approached our city prosecutor, Ernest Cate, and . . . said,
‘Hey, this is what happened, we still think that there’s
a criminal act here but obviously a misdemeanor and
not—certainly not a felony.’ ” Id. Detective Ross reasoned that Mr. Rochell must have been guilty of disorderly conduct because he had “caused alarm” and “was
reckless” when he approached a legally parked car
while carrying a rifle. Id. at 21. The prosecutor agreed
to charge Mr. Rochell with disorderly conduct, and he
was found guilty at a bench trial before Judge Jeff Harper in Springdale District Court on July 28, 2016. See
Doc. 53-19. He was ordered to pay a fine of $250, costs
of $100, $20 in city jail fees, and $20 in county jail fees.
Id. He was also sentenced to 30 days in jail, which was
suspended. Id.
Mr. Rochell now brings suit for the alleged violation of his constitutional rights pursuant to 42 U.S.C.
§ 1983 against Detective Ross, in both his individual
and official capacities, for: (1) the use of excessive force
in the course of Mr. Rochell’s arrest, in violation of Mr.
Rochell’s Fourth Amendment right, (2) falsely arresting Mr. Rochell without probable cause, in violation
of his Fourth and Fourteenth Amendment rights, and
(3) falsely imprisoning Mr. Rochell, in violation of his
Fourth and Fourteenth Amendment rights. Detective
Ross and Springdale argue in their joint Motion for
Summary Judgment that Mr. Rochell has failed to
identify any custom, policy, or practice of Springdale

App. 21
that was the moving force behind the constitutional
violations alleged, and therefore, the official-capacity
claims must be dismissed.
Detective Ross argues that if he placed the barrel
of his weapon against the back of Mr. Rochell’s head
and threatened to “blow his brains out”—as Mr. Rochell claims he did—after Mr. Rochell was already on
the ground, subdued, and cooperative, these acts were
nonetheless appropriate under the circumstances and
did not violate Mr. Rochell’s constitutional rights. However, Detective Ross contends that if these acts did violate Mr. Rochell’s rights, qualified immunity should
apply to shield Detective Ross from liability.
As for Mr. Rochell’s claim of false arrest, Detective
Ross argues that he reasonably relied on the information relayed to him by police dispatch about Mr. Rochell having a felony record. He also points out that Mr.
Rochell was ultimately charged and convicted of disorderly conduct for the events that took place on February 19, 2016, so Detective Ross believes that he had a
good reason to arrest—and jail—Mr. Rochell that day,
even if it was not for the crime of being a felon in possession.
Finally, Detective Ross contends that sending Mr.
Rochell to the WCDC for the charge of being a felon in
possession did not violate Mr. Rochell’s constitutional
rights, because Detective Ross had no duty to investigate Mr. Rochell’s alleged felony conviction further at
the police station. Even if he did violate Mr. Rochell’s

App. 22
constitutional rights, however, he believes he is entitled to qualified immunity for the false imprisonment.
Below, the Court will consider the arguments for
and against granting summary judgment on any of the
official-capacity or individual-capacity claims. In doing
so, the Court will also analyze whether Detective Ross
is entitled to qualified immunity on any of the individual-capacity claims asserted against him.
II.

LEGAL STANDARD

A.

Summary Judgment

The Court shall grant a motion for summary judgment “if the movant shows that there is no genuine
dispute as to any material facts and the movant is entitled to summary judgment as a matter of law.” Fed.
R. Civ. P. 56(a). And the Court will view the facts “in a
light most favorable to the party opposing the motion
[for summary judgment] and give that party the benefit of any inferences that logically can be drawn from
those facts.” Canada v. Union Elec. Co., 135 F.3d 1211,
1212-13 (8th Cir. 1997).
The party requesting summary judgment bears
the burden of proving the absence of any material
facts. Fed. R. Civ. P. 56(c); Matsushita Elec. Indus. Co.
v. Zenith Radio Corp., 475 U.S. 574, 586-87 (1986). If
the moving party meets its burden, the nonmoving
party must set forth “specific facts showing there is a
genuine issue for trial.” Matsushita, 475 U.S. at 587
(quoting Fed. R. Civ. P. 56(e)). “In order for there to be

App. 23
a ‘genuine issue of material fact,’ the evidence must
be ‘such that a reasonable jury court [sic] return a verdict for the nonmoving party.’ ” Allison v. Flexway
Trucking, Inc., 28 F.3d 64, 66-67 (8th Cir. 1994) (quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 258
(1986)); see also Holloway v. Pigman, 884 F.2d 365, 366
(8th Cir. 1989) (stating that a factual dispute must be
“outcome determinative” to bar summary judgment).
Moreover, the nonmoving party cannot rely on
simple allegations or denials in the pleadings, and
summary judgment should be granted if “any essential
element of the prima facie case is not supported by specific facts sufficient to raise a genuine issue for trial.”
Register v. Honeywell Fed. Mfg. & Techs., LLC, 397
F.3d 1130, 1136 (8th Cir. 2005) (citing Celotex Corp. v.
Catrett, 477 U.S. 317, 325 (1986)). “The moving party is
‘entitled to a judgment as a matter of law’ [when] the
nonmoving party [fails] to make a sufficient showing
on an essential element of [his] case with respect to
which [he] has the burden of proof.” Celotex Corp., 477
U.S. at 323 (stating that the moving party does not
have to negate the nonmoving party’s claims in its motion).
B.

Qualified Immunity

When a government official, such as a police officer, is accused of violating an individual’s constitutional rights, qualified immunity will shield that
government official from liability unless his conduct violates “clearly established statutory or constitutional

App. 24
rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
This is a two-step inquiry. In order for a plaintiff to
overcome an officer’s defense of qualified immunity, he
must show: “(1) the facts, viewed in the light most favorable to the plaintiff, demonstrate the deprivation of
a constitutional or statutory right; and (2) the right
was clearly established at the time of the deprivation.”
Howard v. Kan. City Police Dep’t, 570 F.3d 984, 988 (8th
Cir. 2009). “Whether an officer is entitled to qualified
immunity because he ‘acted reasonably under settled
law in the circumstances’ is a question of law for the
court, both before and after trial.” New v. Denver, 787
F.3d 895, 899 (8th Cir. 2015) (quoting Hunter v. Bryant,
502 U.S. 224, 228 (1991)). “For a right to be deemed
clearly established, the ‘contours of the right must be
sufficiently clear that a reasonable official would understand that what he is doing violates that right.’ ”
Buckley v. Rogerson, 133 F.3d 1125, 1128 (8th Cir. 1998)
(quoting Anderson v. Creighton, 483 U.S. 635, 640
(1987)). “The question is whether the law gave the officials ‘fair warning that their alleged conduct was unconstitutional.’ ” Bonner v. Outlaw, 552 F.3d 673, 679
(8th Cir. 2009) (quoting Brown v. Fortner, 518 F.3d 552,
561 (8th Cir. 2008)). “[O]fficials can still be on notice
that their conduct violates established law even in
novel factual circumstances.” Hope v. Pelzer, 536 U.S.
730, 741 (2002).
Qualified immunity “gives ample room for mistaken judgments by protecting all but the plainly incompetent or those who knowingly violate the law.”

App. 25
Hunter, 502 U.S. at 229 (quotation omitted). With respect to a claim for excessive force, “[t]he question for
the jury is whether, judging from the perspective of a
reasonable officer at the scene of the arrest, the totality
of the circumstances justifies the use of the force used.”
Foster v. Metro. Airports Comm’n, 914 F.2d 1076, 1081
(8th Cir. 1990). In order to evaluate whether the use
of force was reasonable, the Court should consider “the
severity of the crime, whether the suspect posed a
threat to the safety of the officers or others, and
whether the suspect was resisting arrest.” Id. “Additionally, we must judge the reasonableness of the Officers’ conduct from the ‘perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight,’ and with ‘allowance for the fact that police officers are often forced to make split-second judgments—in circumstances that are tense, uncertain,
and rapidly evolving—about the amount of force that
is necessary in a particular situation.’ ” Howard, 570
F.3d at 989 (quoting Graham v. Connor, 490 U.S. 386,
396-97 (1989)).
With respect to a claim for false arrest, if the arresting officer lacks both an arrest warrant and probable cause to arrest, qualified immunity will shield him
when “a reasonable officer could have believed [the]
arrest to be lawful, in light of clearly established law
and the information the arresting officer[ ] possessed.”
Hunter, 502 U.S. at 227. “[T]he issue for immunity purposes is not probable cause in fact but arguable probable cause, that is, whether the officer should have
known that the arrest violated plaintiff ’s clearly

App. 26
established right.” Habiger v. City of Fargo, 80 F.3d
289, 295 (8th Cir. 1996) (emphasis added and quotation
omitted), cert. denied, 519 U.S. 1011 (1996). When an
officer arrests an individual due to a mistake of fact,
the Court must look “at the totality of the circumstances surrounding the arrest to determine its reasonableness.” Hill v. Scott, 349 F.3d 1068, 1073 (8th Cir.
2003).
Finally, with respect to a claim for false imprisonment, the case law rarely distinguishes this claim from
that of false arrest. Indeed, neither party briefed the
issue of false imprisonment as distinct from the claim
for false arrest; therefore, the question of Detective
Ross’s qualified immunity for the claim for false imprisonment should be analyzed in largely the same
way as the claim for false arrest. The factual wrinkle
in this case, however, is that Mr. Rochell was arrested
without a warrant, based on identifying information
that was later proven to be false. Under those circumstances, the Court must ask whether qualified immunity should continue to protect the officer’s conduct past
the point of arrest, and continuing through the suspect’s imprisonment at the local jail. The salient question appears to be: At what point, if any, does an officer
owe a duty to investigate in order to be certain that the
basis on which a warrantless arrest was made was correct?

App. 27
III.
A.

DISCUSSION

Official-Capacity Claim

The Court begins its discussion with Mr. Rochell’s
official-capacity claim. The Amended Complaint and
Response to the Motion for Summary Judgment both
fail to identify any custom, policy, or practice of the
City of Springdale that was the moving force behind
the violation of any constitutional rights. The law is
clear that a municipality cannot be held vicariously liable under a theory of respondeat superior for its employees’ unconstitutional acts. Monell v. Dep’t of Soc.
Servs., 436 U.S. 658, 691 (1978). Here, Mr. Rochell has
alleged that certain police officers made various mistakes that led to him being arrested for being a felon
in possession, and that Detective Ross took certain
actions in the commission of that arrest and later imprisonment that violated Mr. Rochell’s constitutional
rights. Because no genuine, material dispute of fact
exists as to any official-capacity claim, Springdale is
entitled to summary judgment and will be dismissed
from the lawsuit.
B.

Individual-Capacity Claims
1.

Excessive Force

The Court finds that there remain genuine, material questions of fact as to whether Detective Ross used
excessive force during the arrest of Mr. Rochell, and
thereby violated his constitutional rights. Detective
Ross initially pointed his service weapon at Mr. Rochell
in order to induce him to drop his own weapon, an

App. 28
AR-15 rifle that was mounted on a strap and slung
around Mr. Rochell’s body. However, once Mr. Rochell
placed his rifle on the ground—slowly and appropriately, by Detective Ross’s own admission—and stepped
away from it—purposely, as confirmed by Detective
Brashear—the threat level may have changed. Detective Ross contends, and Mr. Rochell agrees, that at first,
Mr. Rochell failed to obey the command to get to the
ground after dropping the weapon. With that said,
however, Detective Ross agrees that at that moment,
Mr. Rochell was not being argumentative, violent, or
combative. Detective Brashear’s testimony confirms
that account.
Viewing the facts in the light most favorable to
Mr. Rochell, after he was disarmed, with his weapon
on the ground several feet from him, and he was lying
on the ground with his hands behind his back, posing no threat to anyone, Detective Ross then pressed
his weapon “behind [Mr. Rochell’s] right ear” and
screamed, “I’ll blow your fucking brains out if you ever
approach me like that again!” (Doc. 53-1, p. 7). For his
part, Detective Ross does not recall specifically what
he said once Mr. Rochell went to the ground, but he
does remember screaming at Mr. Rochell and admits
that he pointed his gun at Mr. Rochell “when he was on
the ground,” at “[a]lmost point blank” range, (Doc. 537, p. 29), and that it was “[v]ery likely” that he placed
the barrel of his pistol directly against Mr. Rochell, just
as Mr. Rochell claims he did, id. at 30. Detective Ross
neither admits nor denies that he then threatened to
“blow [Mr. Rochell’s] fucking head off.” Id.

App. 29
Under these facts, Mr. Rochell has constructed a
triable claim for excessive force that should be presented to a jury. “[U]se of force is contrary to the Fourth
Amendment if it is excessive under objective standards
of reasonableness.” Saucier v. Katz, 533 U.S. 194, 202
(2001). “In recognizing these excessive-force claims,
the courts have distinguished the need for an initial
show of force that is reasonable under the circumstances from a continued showing of force once the situation is under control.” Merrill v. Schell, 2017 WL
3726969, at *7 (W.D.N.Y Aug. 30, 2017) (referencing Binay v. Bettendorf, 601 F.3d 640, 649-50 (6th Cir. 2010)).
The Eighth Circuit has held that when an officer
simply draws his gun and points it at a subject, without any indication that the officer intends to fire the
gun, this “does not rise to the level of a constitutional
violation.” Edwards v. Giles, 51 F.3d 155, 157 (8th Cir.
1995). However, in the case at bar, under the facts alleged by Mr. Rochell, Detective Ross pointed his
weapon at Mr. Rochell in a manner that would tend
to indicate: (1) that he intended to fire the gun and
(2) that he intended to kill Mr. Rochell.
The First Circuit has explained a “straightforward
rule” that every police officer should be well familiar
with: that “pointing a firearm at a person in a manner
that creates a risk of harm incommensurate with any
police necessity can amount to a Fourth Amendment
violation.” Stamps v. Town of Framingham, 813 F.3d
27, 42 (1st Cir. 2016). Under the circumstances asserted by Mr. Rochell, Detective Ross could not have
reasonably believed it was necessary to place a loaded

App. 30
weapon at Mr. Rochell’s head and then threaten to kill
him, absent any risk of threat or danger to Detective
Ross or to anyone else. Threatening to kill an individual who is in custody, in the manner and under the circumstances alleged by Mr. Rochell, must be reasonably
justified by a legitimate law-enforcement purpose in
order to comply with the law. Here, Detective Ross has
not presented the Court with any legitimate law-enforcement justification for this conduct.
Judge Lawrence J. Vilardo of the Western District
of New York has helpfully collected a number of cases
from several circuits involving police officers’ use of
force. See Merrill, 2017 WL 3726969, at *7 (collecting
cases). What the cases have in common is that they all
attempt to articulate exactly when a police officer’s use
of a loaded firearm on an individual may constitute excessive force, even in the absence of any injury. In the
Tenth Circuit’s opinion in Holland ex. rel. Overdorff v.
Harrington, 268 F.3d 1179, 1193 (10th Cir. 2001), cert.
denied, 535 U.S. 1056 (2002), the Court explained:
Where a person has submitted to the officers’
show of force without resistance, and where
an officer has no reasonable cause to believe
that person poses a danger to the officer or to
others, it may be excessive and unreasonable
to continue to aim a loaded firearm directly at
that person, in contrast to simply holding the
weapon in a fashion ready for immediate use.
Similarly, in the Ninth Circuit’s opinion in Tekle v.
United States, 511 F.3d 839, 847 (9th Cir. 2007), the
Court reiterated its view that “pointing a gun at a

App. 31
suspect’s head can constitute excessive force in this circuit.” And the Seventh Circuit reminded courts that
they are to look “to whether the force used to seize the
suspect was excessive in relation to the danger he
posed—to the community or to the arresting officers—
if left unattended.” McDonald v. Haskins, 966 F.2d 292,
292-93 (7th Cir. 1992). When considering the amount
of force alleged by Mr. Rochell to have been used by
Detective Ross, and balancing that force used against
the need for such force at the time, the Court believes
a reasonable jury could find that a constitutional violation occurred.
As for the issue of Detective Ross’s entitlement to
qualified immunity, this protection will be denied. Although there does not appear to be a case in this Circuit
with exactly the same fact-pattern alleged here, the
Court finds, nonetheless, that the law was clearly established at the time of these events that an officer
who threatens to kill an individual who is lying on the
ground, weaponless, cooperative, and posing no danger
to the officer or to others, may violate the individual’s
Fourth Amendment rights. The Court agrees with the
Eleventh Circuit that when “conduct lies so obviously
at the very core of what the Fourth Amendment prohibits that the unlawfulness of the conduct was readily
apparent to the official, notwithstanding the lack of
caselaw,” the defense of qualified immunity will not apply. Smith v. Mattox, 127 F.3d 1416, 1419 (11th Cir.
1997); cf. Hawkins v. Holloway, 316 F.3d 777, 787-88
(8th Cir. 2003) (denying qualified immunity to a sheriff
who expressed frustration with his employees by

App. 32
pointing his loaded weapon at them and threatening
to shoot them, as the sheriff ’s “alleged conduct was so
far beyond the bounds of the performance of his official
duties that the rationale underlying qualified immunity is inapplicable,” and any law enforcement officer
would have had “fair warning” that such conduct would
violate an individual’s constitutional rights); Mountain
Pure, LLC v. Roberts, 27 F. Supp. 3d 962, 972 (E.D. Ark.
2014) (“Pointing guns at persons who are compliant
and present no danger is a constitutional violation
that appears to be clearly established.”) (citing Baird
v. Renbarger, 576 F.3d 340, 346-47 (7th Cir. 2009)).
Summary judgment is therefore denied as to the excessive-force claim.
2.

False Arrest

In the case at bar, the parties agree that when Mr.
Rochell was arrested for being a felon in possession of
a firearm, the officers at the scene had received incorrect information as to Mr. Rochell’s criminal history,
and they had relied on that incorrect information in
determining there was probable cause to arrest Mr. Rochell. In fact, there was no actual probable cause to arrest Mr. Rochell for being a felon in possession.
Furthermore, Mr. Rochell was not arrested at the scene
or even later that day on any other charge other than
being a felon in possession. The fact that Detective
Ross and his supervisor were ultimately successful in
persuading the city prosecutor to issue a citation to Mr.
Rochell for disorderly conduct one week after the incident at issue has absolutely nothing to do with whether

App. 33
probable cause existed to arrest him for being a felon
in possession. That conviction for disorderly conduct
does not retroactively absolve Detective Ross of liability for the false arrest.3
Next, the Court must consider whether Detective
Ross is entitled to qualified immunity for the arrest.
The Eighth Circuit in Williams v. Decker, 767 F.3d 734,
743 (8th Cir. 2014), held that when a police officer confirms with dispatch a suspect’s prior felony conviction,
this confirmation creates at least “arguable probable
cause” to arrest and entitles the arresting officer to
qualified immunity. Even when a suspect tells the arresting officers that their information is faulty and
that he has not been convicted of a felony, it is “objectively reasonable for the officers to rely on [the
3

Detective Ross makes this very argument, that Mr. Rochell’s “claims of false arrest”—and of false imprisonment, presumably— “are barred by Heck v. Humphrey, 512 U.S. 477, 48687 (1994),” because the Heck rule bars a claimant from bringing
a Section 1983 civil action for damages when doing so calls into
question the validity of a state-court conviction. See Doc. 52, p. 13.
In other words, Detective Ross contends he is entitled to summary
judgment on both the false arrest and false imprisonment claims
because to find otherwise would call into question the validity of
Mr. Rochell’s conviction for disorderly conduct. The Court disagrees. The conviction for disorderly conduct would not be called
into question if a jury found that Detective Ross improperly arrested and imprisoned Mr. Rochell for being a felon in possession—the only charge that was levied against him on the date of
his arrest, and the only legal basis for which he was incarcerated
at the WCDC that same day. The felon-in-possession charge was
later dropped and never pursued, but the separate citation for
disorderly conduct was issued approximately a week after the arrest in question.

App. 34
suspect’s] criminal history as reported and confirmed
to them by a police dispatcher.” Id.
In the case at bar, Ms. Elliott, the police dispatcher,
relayed to Detective Thorson her confirmation, based
on her interpretation of an ACIC report, that Mr. Rochell had a past felony conviction for arson. Even
though she was incorrect in her assessment, Detective
Thorson reasonably relied on it, and so did Detective
Ross. Because qualified immunity protects Detective
Ross for the false arrest, this claim is dismissed with
prejudice.
3.

False Imprisonment

The last issue the Court confronts is whether Detective Ross is entitled to qualified immunity for his
decision to send Mr. Rochell to jail on the charge of being a felon in possession. The facts are undisputed that
when Detective Ross arrived at the police station, he
obtained a copy of the ACIC report that contained the
false information about Mr. Rochell’s criminal history,
which, in turn, formed the sole basis for arresting Mr.
Rochell for being a felon in possession. At what point
was it incumbent upon Detective Ross to carefully examine the ACIC report and make certain that the report was correct and contained a true record of Mr.
Rochell’s prior felony? The law does not answer that
question with certainty, but all parties here agree that
Mr. Rochell disputed that he had a felony conviction
from the time Detective Ross first informed him of it,
and Mr. Rochell continued to dispute it after he arrived

App. 35
at the police station—so much so that Mr. Rochell’s
protests caused Detective Ross to question whether the
evidence against him was correct. Detective Ross testified that at the police station, Mr. Rochell was “very
adamant” that the ACIC report was false when Detective Ross showed it to him. (Doc. 53-7, p. 12). And “the
way” in which Mr. Rochell was denying the felony convictions—forcefully, yet “respectful[ly],” made Detective Ross feel “there may have been some validity to
[Mr. Rochell’s denials].” Id.
Even though Detective Ross harbored doubts as to
Mr. Rochell’s guilt—and by extension, the accuracy of
the ACIC report that was the source of information
confirming his guilt—Detective Ross conducted no further investigation to verify his suspicions. Even a cursory inspection of the ACIC report that Detective Ross
held in his hands would have revealed the felony criminal history that was listed there belonged to a White
man named Johnny Wayne Russell, Jr.; whereas Detective Ross had in his custody a Black man named Johnnie Rochell, Jr.4 Exigent circumstances do not explain
Detective Ross’s failure to take a second glance at the
top of the first page of the ACIC report and question
the validity of the “false hit” on Johnny Russell prior to
approving Mr. Rochell’s transport to the WCDC. For
some reason that remains unexplained, Detective Ross
put off performing any investigative police work until several days after Mr. Rochell went to jail. When
he finally set his mind to the task of verifying the
4

This factual situation raises questions about the reasonableness of Detective Ross’s actions, as well as his competence.

App. 36
conviction, Detective Ross was able to confirm Mr. Rochell’s innocence, have the charge against him dropped,
and call him personally to apologize, all within a single
day.
The facts as set forth above, and viewed from the
perspective of Mr. Rochell, establish that there is a genuine, material dispute as to whether Mr. Rochell was
falsely imprisoned. The tort of false imprisonment
under Arkansas law is “the unlawful violation of the
personal liberty of another consisting of detention
without sufficient legal authority.” Headrick v. Wal–
Mart Stores, Inc., 293 Ark. 433, 435 (1987). Detective
Ross is not entitled to qualified immunity for the
charge of false imprisonment because his conduct,
viewed in the light most favorable to Mr. Rochell, violated “clearly established statutory or constitutional
rights of which a reasonable person would have
known.” Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982).
Detective Ross admits that he doubted Mr. Rochell’s
guilt at the time he was being booked but sent him to
the WCDC anyway.
Although “[t]he law does not require law enforcement officers to conduct a perfect investigation to avoid
suit for false arrest,” Joseph v. Allen, 712 F.3d 1222,
1228 (8th Cir. 2013), it stands to reason that if intervening events occur between the subject’s arrest and
his imprisonment, a court should consider: (1) whether
a reasonable officer would have found those intervening circumstances to be cause for further investigation,
and (2) whether, under the circumstances, the failure
to conduct further investigation would have violated the

App. 37
subject’s constitutional rights. Considering Detective
Ross’s admitted knowledge and conduct, the Court
finds that a police officer in possession of the same
facts and suspicions as Detective Ross would not have
found it reasonable to delay further investigation.
It also strikes the Court that Detective Ross’s apparent lack of training regarding generating and analyzing ACIC reports, as well as his apparent inability
to conduct database searches without others’ help, reveals his lack of competence at these particular tasks,
and is yet another justification for denying him qualified immunity for this cause of action. See Hunter v.
Bryant, 502 U.S. 224, 229 (1991) (finding that an officer
who is negligent or mistaken should receive qualified
immunity, but one who is “plainly incompetent” should
not).5
For example, Detective Ross admitted in his deposition that even though he relied entirely on the ACIC
report to charge Mr. Rochell with a crime, he had never
personally run an ACIC report before, did not “have a
great understanding” of what an ACIC report was or
how to read an ACIC printout, (Doc. 53-7, p. 37), and
when he finally decided to investigate Mr. Rochell’s
criminal history, he relied on another officer for “pointers . . . on websites to look at and databases to look
5

The Court does not mean to imply that Detective Ross is
generally an incompetent police officer; rather, his own deposition
testimony has raised a question of fact as to whether his skills
in analyzing ACIC reports and performing follow-up database
searches are substandard and not commensurate with the skills
typically possessed by a reasonable officer.

App. 38
into,” id. at 15. A reasonable jury could find that even
though Detective Ross questioned Mr. Rochell’s guilt
at the police station, he did not behave reasonably in
failing to conduct any investigation—either due to his
lack of research skills, his lack of training in reading
ACIC reports, and/or his eagerness to return to the
field and complete the surveillance mission that Mr.
Rochell’s arrest had interrupted. For all of these reasons, the Court denies summary judgment on the falseimprisonment claim.
IV.

CONCLUSION

IT IS THEREFORE ORDERED that Defendants City of Springdale, Arkansas’ and Detective Cody
Ross’s Motion for Summary Judgment (Doc. 51) is
MOOT IN PART, GRANTED IN PART, AND DENIED IN PART. The Motion is MOOT as to all claims
that were dismissed without prejudice due to the parties’ Amended Joint Stipulation (Doc. 64). The Motion
is GRANTED as to the official-capacity claim against
Defendant Springdale, and Springdale is DISMISSED
WITH PREJUDICE; and the Motion is further
GRANTED as to the individual-capacity claim against
Detective Ross for false arrest, and this claim is DISMISSED WITH PREJUDICE. The Motion is DENIED as to the individual-capacity claims against
Detective Ross for excessive force and false imprisonment.

App. 39
IT IS SO ORDERED on this 25th day of October,
2017.
/s/ Timothy L. Brooks
TIMOTHY L. BROOKS
UNITED STATES
DISTRICT JUDGE

App. 40
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 17-3608
Johnnie Rochell, Jr.
Appellee
v.
City of Springdale Police Department, et al.
Detective Cody Ross, Springdale, Individual Capacity
Appellant
Officer Chris Denton, #253 Fayetteville, et al.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Appeal from U.S. District Court for the
Western District of Arkansas - Fayetteville
(5:16-cv-05093-TLB)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
The petition for rehearing en banc is denied. The
petition for rehearing by the panel is also denied.
May 28, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

